Mr. Chairman and Members of the Subcommittee:



Thank you for the opportunity to participate in this important

discussion about one of the most critical Department of Defense

information system initiatives, the Standard Procurement System

(SPS).



As requested in your invitation letter, my statement focuses

primarily on the results of my office's three audits on this

program.   First, to put our findings on SPS into a broader

context, I will repeat a few observations from my testimony

before you last March on Top Defense Management Challenges.



     "Given the considerable dependence on "IT" and the high
     cost of large system investments, the historically poor
     record of the DoD for controlling the proliferation of
     incompatible systems with nonstandard data elements,
     acquiring new systems that meet user needs within
     reasonable timeframes, controlling cost, and ensuring the
     quality and security of data has been a major concern.
     Recognizing that such problems are common across the
     Federal Government, the Congress specified in the Clinger-
     Cohen Act of 1996 that Chief Information Officers in each
     agency would oversee well disciplined information
     technology acquisition processes. This is a daunting
     challenge for a department with 71 major information system
     acquisition projects and hundreds of "smaller" system
     acquisition and modification projects belonging to dozens
     of organizations. The DoD has been candid about the need
     for more effective management controls in this crucial
     area, but progress has been slow and the goals of the
     Clinger-Cohen Act have not yet been achieved.
                                                                     2


     The Department has revised its basic information system
     acquisition procedures and tried to be responsive to our
     recommendations. Nevertheless, we believe this area
     deserves continued close attention.... At the present time,
     virtually every information technology project that we
     audit exhibits significant management problems. Those
     flaws include poorly defined requirements and frequent user
     dissatisfaction."


The SPS is one of those 71 major systems.    Many of the issues

raised during the past few years by my office, SPS users and the

General Accounting Office pertained directly to incomplete

compliance with the Clinger-Cohen Act, inadequate definition of

requirements and user dissatisfaction.   Its problems and

challenges are not atypical in the DoD information system

acquisition world.



When discussing the SPS program, it is also important to keep in

mind that it represents one of the Department's most aggressive

attempts to modernize and standardize its information processing

in a core business function.   The SPS was originally intended to

replace a jumble of between 70 and 80 existing systems and to

support what the Department refers to as the End-to-End

Procurement-Finance Model.   The concept of a common system to be

used by all Military Departments and Defense Agencies for the

whole gamut of procurement tasks, with efficient links to the

finance systems, is extremely challenging.    Nevertheless, it has
                                                                   3


been well worth pursuing even if total standardization proves to

be impossible, as is likely to be the case.



Finally, the SPS program merits close attention because of:



     - the need for productivity enhancing information tools to

offset the 50 percent reduction of the Defense acquisition

workforce over the past several years;



     - its prominence as a major attempt to tailor off-the-shelf

commercial software for government use; and



     - its spiral development and incremental deployment

approaches, which have been widely touted as the best means to

get new technology to users as quickly as possible.



Now to recap our three reports on SPS.



The SPS program began in November 1994.   From April through

October 1995, four draft contract solicitations were issued for

comment.   During that process, we received allegations to the

DoD Hotline regarding what functional requirements had been

initially identified, the program's acquisition approach and its

testing plans.   We reported our findings on these matters in
                                                                   4


Audit Report No. 96-219, Allegations to the Defense Hotline

Concerning the Standard Procurement System, September 5, 1996.



We determined that, despite Assistant Secretary of Defense

(Command, Control, Communications and Intelligence) review and

approval for SPS to proceed past Acquisition Milestone I in

August 1995, much more needed to be done to control program

risks.   Specific risks were as follows:



     - the testing plan was inadequate because of uncertain

operational performance requirements and a compressed schedule;



     - the acquisition strategy was to purchase an off-the-shelf

commercial system, although it was recognized that very

substantial follow-on software development would be needed to

operate in the Defense environment;



     - initially, a fixed price contract was planned, despite

numerous uncertainties;



     - functional requirements were delineated too broadly and

there was insufficient assurance that user needs had been fully

identified;
                                                                  5


     - specific site requirements were not well defined; and



     - alternative deployment approaches were not fully

analyzed.



In response to our audit, managers generally agreed that the

program carried risk and took various measures to formalize the

testing requirements, change the contract terms and provide

ongoing monitoring.   We were assured that each future

Acquisition Milestone decision would be accompanied by a

rigorous Office of the Secretary of Defense level review of

system functionality, testing and risks.   In retrospect, it is

clear that not enough was done to keep the commitment expressed

by the Defense Logistics Agency in reply to our report:



     "By prior direction of the Director, Defense Procurement,
     SPS will not be deployed to any DoD procurement site
     wherein we cannot provide equal to or better than existing
     functionality."


We performed a follow-up audit during 1998, resulting in Audit

Report No. 99-166, Initial Implementation of the Standard

Procurement System, May 26, 1999.   We raised or reiterated the

following concerns:
                                                                   6


     - The commercial software was providing only 45 percent of

the required functionality, not the 60 to 75 percent that was

originally predicted;



     - the drastic makeover of the system to add functionality

had created a DoD-unique system, yet in contractual terms SPS

remained a licensed commercial product and DoD was locked into a

sole source for life cycle support;



     - initial users were complaining about the system's limited

capability, the newly installed SPS software was not being used

at 13 of 25 sites that we visited, and the "equal or better

functionality" guidelines had not been enforced;



     - the schedule was slipping and costs had increased;



     - training, guidance and help desk support for users were

inadequate;



     - inefficient workarounds were frequently in use at sites

where SPS had been deployed;



     - a more accurate life-cycle cost estimate was needed; and
                                                                     7


     - although considerable time had passed since Congress

provided additional contracting flexibility for buying

commercial products, DoD still lacked internal guidance on

acquiring commercial computer software for major information

systems, including the SPS.



The management responses to our May 1999 report were mixed.    The

Assistant Secretary of Defense (Command, Control, Communications

and Intelligence) agreed to issue guidance on acquiring

commercial software and did so in July 2000.   During the audit,

in May 1998, a Requirements Board was established to evaluate

deficiencies identified by users.   The Board determined that 36

additional capabilities were needed.   The program office also

took various measures to improve customer support.   By and

large, however, program office managers appeared to believe that

the problems cited in our report had been solved in the latest

releases of the SPS software.   As subsequent events proved, this

was not the case.



By December 1999, four versions of SPS had been deployed, the

latest being version 4.1.   At about that time, the House

Committee on the Budget opened its own Internet hotline for

citizens to report waste in Government and received multiple

complaints about SPS from Defense personnel at sites that had
                                                                    8


received it.   The Committee referred these allegations to us and

we decided to conduct a web-based survey of statistically

selected SPS version 4.1 users.     Although the Department had

great difficulty providing accurate user identities and e-mail

addresses, we received about 600 replies to the survey

instrument between May and July 2000.



The survey results were published in Audit Report No. D-2001-

075, Standard Procurement System Use and User Satisfaction,

March 13, 2001.   The only reasonably good news was that 86

percent of the SPS users stated that the system was available

always or most of the time.   Otherwise, although numerous

software improvements had been made and many respondents praised

the system's potential, user dissatisfaction levels were still

unexpectedly high.   For example:



     •   61 percent of SPS users preferred a procurement system

         other than SPS,

     •   46 percent of the users stated that the number of

         workarounds had increased,

     •   51 percent of the users stated that productivity had not

         increased since SPS version 4.1 was implemented, and
                                                                      9


     •   64 percent of the users stated that SPS had not

         substantially contributed to the DoD goal of paperless

         contracting.



Further, based on survey responses, we projected that about 27

percent of the personnel licensed to use SPS version 4.1 had not

used it, because SPS either lacked the functionality for those

sites or employees received SPS when it was not needed to

perform their jobs.     We estimate that the Department spent up to

$2.1 million on licenses for users who could not or did not need

to use SPS.



We made numerous recommendations and offered the following

general conclusions.



     "DoD has experienced a 50 percent reduction in the
     procurement workforce without a commensurate reduction in
     workload. Conceptually, SPS should assist in automating
     and standardizing a variety of procurement tasks and thus
     assist in more efficiently completing the workload.
     According to the survey, however, functionality remains a
     serious concern. Management needs to respond to this
     concern when deploying new SPS versions and, if SPS does
     not fully meet mission needs, should consider supplementary
     and alternative tools for the procurement workforce."


     "There is a need for more appropriate testing prior to
     future deployment. About 38 percent of respondents contend
     that SPS version 4.1 had only some or none of the
     functionality needed, despite testing. Present performance
     measures do not address mission needs such as enhancing
                                                                 10


     customer service, reducing problem disbursements,
     increasing contracting personnel productivity, or
     eliminating redundancy."


Several actions have been taken, in response to our audits and

various other reviews, which lead me to be cautiously optimistic

about the future of this effort.   For example:



     - the Director, Defense Procurement, explicitly directed

the Military Departments and Defense Agencies to assess and

validate functional requirements against user needs before

deploying any future versions of the SPS;



     - it is apparent that the Department insisted on rigorous

testing of SPS version 4.2, which was actually returned to the

contractor for rework last year;



     - a contractor has been hired to provide Independent

Validation and Verification of SPS software;



     - independent management assessments by consultants and DoD

acquisition experts strongly indicated higher than acceptable

levels of risk remaining in the program and seem to have added

impetus to efforts to improve its discipline and risk

management;
                                                                    11




     - a working group is developing the performance measures

that are badly needed to monitor this program properly;



     - the SPS acquisition strategy and economic analysis will

be reviewed and updated; and



     - senior Office of the Secretary of Defense managers are

clearly more engaged in this program's issues than was the case

earlier in the program.



In conclusion, I believe that the SPS concept is fundamentally

sound and the Department will be well served by replacing the

outmoded and unintegrated legacy systems.   Nevertheless, despite

the numerous commendable actions recently taken, it would be

premature to assume that further execution of this program will

necessarily be smooth.    In the near term, the program continues

to need close attention and perhaps more restructuring if it is

to fulfill the Department's expectations.   The exact scope of

the program and its funding requirements need to be resolved

this year.   From the standpoint of DoD financial management, the

effectiveness of the data transfer between SPS and the DoD

finance and logistics systems will be an especially significant
                                                                  12


concern, particularly because those other systems and related

standards are in various stages of redesign or replacement.



The recent suggestion by GAO that a DoD "lessons learned" report

be written on the SPS experience is a very good one, although it

would be important to ensure that such a report be thoroughly

objective and reflect what may be a range of opinion about what

those lessons are.



Thank you again for considering these views.
